Record Press Inc., 229 West 36th Street, New York, N.Y. 10018•
Tel: (212) 619-4949• Fax No. (212) 608-3141
STATE OF NEW YORK,
SS:

80994

AFFIDAVIT OF SERVICE

COUNTY OF NEW YORK
Edward Gutowski being duly sworn, deposes and says that deponent is not party to the action, and is
over 18 years of age.
That on the 19th day of December 2019 deponent served 3 copies of the within

BRIEF IN OPPOSITION
upon the attorneys at the addresses below, and by the following method:

BY FEDERAL EXPRESS NEXT BUSINESS DAY DELIVERY
Theodore 8. Olson
Gibson Dunn & Crutcher LLP
1050 Connecticut Avenue, NW
Washington, D.C. 20036
(202) 955-8500
tolson@gibsondunn.com

Attorneys for Petitioner

I, Edward Gutowski, declare under penalty of perjury under the laws of the United States of America
that the foregoing is true and correct, executed on December 19, 2019, pursuant to Supreme
Court Rule 29.5(c). All parties required to be served, have been served.

Edward Gutowski

-

Sworn to me this

December 19, 2019
ALESSANDRA L. KANE
Notary Public, State of New York

Case Name: CACI Premier Technology v. Suhail
Najim Abdullah Al Shimari

No.01KA6340521
Qualified in Richmond County
mmission Expires April 18, 2020

Docket No.: 1 9-648

